4
IN THE SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF COMPLIANCE
No. 19
Achashverosh Adnah Ammiyhuwd,
Petitioner,
-againstMICHAEL RICHARD POMPEO,
U.S. SECRETARY OF STATE et al,
Respondent(s).

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, transient foreigner Achashverosh Adnah Ammiyhuwd, a chief biblical
Ambassador from the biblical Southern nation/state tribes of Judah (Yahadah), Sui
Juris, propria persona, In rerum natura, and sui generis declare, certify, verify, or state
under penalty of perjury, under the laws of the United States of America pursuant
to 28 U.S. Code ยง 1746(1), that, according to the word-count tool in Microsoft Word,
the Writ Certiorari in Support of Petitioner consists of 8, 988 words, including
footnotes and excluding the sections enumerated by Rule 33. 1(d). The Writ
Certiorari therefore complies with Rule 33.1(g).
Respectfully Executed on the
By

., day of August 2019*
A'ttjiwx

Achashverosh Adnah Ammiyhuwd
Transient Foreigner
In c/o 2700 Valparaiso St. P.O. Box 1542
Non Domestic-without US, 28 U.S.C. ยง 1746(1)
Valparaiso, Indiana, Zip Code Exempt [DMM 602 1.3e (2)]
Real Land North America
Phone: 443-350-4567
Email: Achashverosh@hQtmail.c_om

RECEIVED
AU6 2 2 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

